                             NATIONAL SCIENCE FOllNDATiON
                                 4201 WILSON BOULEVARD
                                ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTORGENERAL




 MEMORANDUM
                                                                                              I
 To:

 From:                                               stigations Section

 Through:                                            harge, Investigations Section

 Re:


 Background:



 section in whic
                                                                   ed in January 1991 to
                                                                   in March 1994 when



                                                                          rk occurred while


 Findings:

 We reviewed a count summaries and financial information for the NSF grant, which was
 provided by *ndmNWe            found that w h i l e m a s a t P p p r o x i r n a r e l y
 $27,000 was charged to t e SF grant.

                                        ad submitted an equivalent proposal to the
                                            the same time she submitted the proposal to
                                            in both proposals, and stated that if one was
 funded, the other proposal would be withdrawn.
                                                                                          Closeout -




                                                            ith the understanding that she would
          withdraw the                                        a letter to -equesting      the
                                                                 on this letter. Upon learning that
                                                                                     and subsequently
                                                                                       found that the
                                                                                      had proposed
                                                                 roject.

                tated-in--a-February-1-998interview that-she was not-able to bring full "closure" to    -
                              rejects. While she admitted that she spent the majority of her last
         few months a           earching for a new job, she performed some work related to her
         msF
         grants. man- l s o s owed us drafts of manuscripts which she said resulted from her work
         on both projects. These manuscripts were co-authored b                       ho worked as
         a post-doctoral fellow f o m o m September 1994 to                         ese manuscripts
         have not yet been submitted for publication.


I   .,
          Conclusions:

          There is no evidence tha u s e d grant salary during a specific time period when she
          was not doing work on her projects. In addition, there is no evidence that both projects
          were clearly overlapping. Based on these findings, this case is closed.
